<html>
<title> - WORKING THROUGH AN OUTBREAK: PANDEMIC FLU PLANNING AND CONTINUITY OF OPERATIONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 WORKING THROUGH AN OUTBREAK: PANDEMIC FLU PLANNING AND CONTINUITY OF 
                               OPERATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 11, 2006

                               __________

                           Serial No. 109-155

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-533                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 11, 2006.....................................     1
Statement of:
    Kriens, Scott, chairman and CEO, Juniper Networks; Paul B. 
      Kurtz, executive director, Cyber Security Industry 
      Alliance; and Alonzo Plough, board of directors, Trust for 
      America's Health...........................................    89
        Kriens, Scott............................................    89
        Kurtz, Paul B............................................    98
        Plough, Alonzo...........................................   108
    Walker, David M., Comptroller General, Government 
      Accountability Office, accompanied by Linda D. Koontz, 
      Director for Information Management Issues; Linda Springer, 
      Director, Office of Personnel Management; John O. Agwunobi, 
      M.D., Assistant Secretary for Health, Department of Health 
      and Human Services; and Jeffrey W. Runge, M.D., Acting 
      Under Secretary for Science and Technology, Chief Medical 
      Officer, Department of Homeland Security...................    28
        Agwunobi, John O.........................................    49
        Runge, Jeffrey W.........................................    68
        Springer, Linda..........................................    43
        Walker, David M..........................................    28
Letters, statements, etc., submitted for the record by:
    Agwunobi, John O., M.D., Assistant Secretary for Health, 
      Department of Health and Human Services, prepared statement 
      of.........................................................    51
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................   126
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    24
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................   128
    Kriens, Scott, chairman and CEO, Juniper Networks, prepared 
      statement of...............................................    92
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    17
    Kurtz, Paul B., executive director, Cyber Security Industry 
      Alliance, prepared statement of............................   100
    Plough, Alonzo, board of directors, Trust for America's 
      Health, prepared statement of..............................   111
    Runge, Jeffrey W., M.D., Acting Under Secretary for Science 
      and Technology, Chief Medical Officer, Department of 
      Homeland Security, prepared statement of...................    71
    Springer, Linda, Director, Office of Personnel Management, 
      prepared statement of......................................    45
    Walker, David M., Comptroller General, Government 
      Accountability Office, prepared statement of...............    31
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8


 WORKING THROUGH AN OUTBREAK: PANDEMIC FLU PLANNING AND CONTINUITY OF 
                               OPERATIONS

                              ----------                              


                         THURSDAY, MAY 11, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Shays, Platts, Duncan, 
Issa, Foxx, Schmidt, Waxman, Cummings, Kucinich, Davis of 
Illinois, Watson, Lynch, Van Hollen, Ruppersberger, and Norton.
    Staff present: David Marin, staff director; Lawrence 
Halloran, deputy staff director; Ellen Brown, legislative 
director and senior policy counsel; Jennifer Safavian, chief 
counsel for oversight and investigations; Patrick Lyden, 
parliamentarian; John Hunter, counsel; Chas Phillips, policy 
counsel, Rob White, communications director; Andrea LeBlanc, 
deputy director of communications; Susie Schulte, professional 
staff member; Teresa Austin, chief clerk; Sarah D'Orsie, deputy 
clerk; Allyson Blandford, office manager; Leneal Scott, 
computer systems manager; Karen Lightfoot, minority 
communications director/senior policy advisor; Robin Appleberry 
and Sarah Despres, minority counsels; Richard Butcher and Tania 
Shand, minority professional staff members; Earley Green, 
minority chief clerk; and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. Good morning. The committee will come 
to order.
    We are going to have two very distinguished panels of 
witnesses here today to discuss what health experts describe as 
one of the largest dangers facing our Nation--the threat of 
pandemic flu.
    We don't know when or where the next pandemic will strike. 
We don't know what strain of influenza will be the culprit, 
although much evidence points to the avian flu. The virulent 
H5N1 strain has already caused 115 deaths in Southeast Asia, 
China, and the Middle East. Nor do we know if avian flu will 
turn out to be more like swine flu, a pandemic that never 
materialized.
    But regardless, we need to improve our readiness because we 
can be sure that the next flu pandemic is a matter of when, not 
if. And when that time does come, the stakes will be enormous.
    Experts have projected that more than half a million 
Americans could die. Over 2 million could be hospitalized. 
Forty percent of the work force would be unable to report to 
work in the event of a U.S. pandemic flu outbreak.
    It is our responsibility to make sure America is prepared, 
not just prepared to address the massive health implications of 
a pandemic, but prepared for the enormous economic and societal 
disruptions as well. Beyond efforts to protect human health, 
Government agencies and private sector businesses must have the 
ability to maintain essential functions through an outbreak. 
Recent natural disasters and terrorist attacks raise questions 
about how the Federal Government will continue to operate 
during emergencies.
    Last week, President Bush released the administration's 
Implementation Plan for its National Strategy for Pandemic 
Influenza. The plan designates the National Response Plan 
[NRP], as the primary mechanism to coordinate the Federal 
Government's response. Under the NRP, the Department of 
Homeland Security is the lead agency to coordinate all Federal 
activities.
    As seen during Hurricane Katrina, the NRP can be ambiguous, 
and individual authorities among agencies are not clearly 
identified. It is the committee's hope that lessons learned 
from Katrina are being applied to any deficiencies in the NRP 
so the country is more readily prepared for future disasters.
    A key part of the Government's implementation plan is its 
emphasis on telework to ensure essential Government operations 
can continue during a pandemic, when it may not be possible or 
advisable for employees to report to work and be in close 
quarters. Much to my frustration, the Federal Government has 
long lagged behind the private sector in promoting telework, 
despite the traffic, energy, cost, productivity, and employee 
morale benefits it can provide.
    I was pleased to see the pandemic implementation plan 
requires the Office of Personnel Management to develop guidance 
for Federal departments on continuity of operations planning 
criteria and telework to provide instructions for alternative 
workplace options during a pandemic.
    This is an important step forward, and I am hopeful the 
pandemic implementation plan will spur the Government to take 
serious strides in getting more employees to become 
teleworkers. I am also hopeful that this will help the Federal 
Government address several inadequacies in the COOP planning 
including--we call it the COOP planning--including deficient 
guidance to identify essential functions and ensure continued 
delivery of services during a crisis.
    The Government's implementation plan also acknowledges the 
limits of the Federal Government while highlighting the 
importance of preparedness by individuals, communities, and the 
private sector. I think all of us here today agree that our 
State and local health officials will be on the front lines of 
pandemic response. It is our job to provide them with the 
adequate support and essential guidance they need to 
effectively prepare for and respond to a pandemic.
    Our experience with last year's hurricane season is a sad 
reminder of the need for State and local authorities to be 
prepared for anything. Disasters or pandemics don't happen 
according to plan. Response requires agility, flexibility, and 
a willingness by leaders to take action when needed.
    We have many important issues today to discuss within the 
context of pandemic flu. I look forward to a constructive 
dialog with our witnesses on these life-and-death issues.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T8533.001
    
    [GRAPHIC] [TIFF OMITTED] T8533.002
    
    Chairman Tom Davis. And I would now recognize the 
distinguished ranking member, Mr. Waxman, for his opening 
statement.
    Mr. Waxman. Thank you, Mr. Chairman, for holding this 
hearing, and thank you for your leadership on this important 
issue.
    Experts tell us there will be another influenza pandemic. 
We don't know if it is going to be the avian flu or not, but 
pandemics happen every so often. They also tell us that the 
Nation is not prepared to confront this threat. There are 
multiple holes in our capacity to respond.
    We need to increase our vaccine production capacity, 
strengthen our public health infrastructure, create adequate 
hospital surge capacity, and draft contingency plans that will 
ensure the continued operation of important Government 
functions.
    Because we do not know when or how severe the next pandemic 
that will strike us will be, we don't have the luxury of time. 
We need to act quickly and move beyond the planning stage to 
the implementation stage.
    The administration has taken some important steps. In 
particular, they have produced several planning documents. But 
this is not enough, and some of their actions have actually 
been counterproductive.
    According to the President's pandemic preparedness plan, 
the burden of responding to a flu pandemic will largely fall on 
State and local governments. Yet the President's fiscal year 
2000 (sic) budget cuts more than $200 million from the public 
health programs at the Centers for Disease Control and 
Prevention that fund State and local training and preparedness 
efforts.
    Pandemic preparedness also requires a clear and coherent 
leadership structure that is capable of responding in an 
emergency. Unfortunately, the President's implementation plan, 
which was released last week, creates divided authority. It 
would establish the same type of structure that led to the 
tragic confusion and delay in the response to Hurricane 
Katrina.
    Under the President's plan, HHS is in charge of the medical 
response, but DHS is in charge of the overall response. There 
is no clear delineation of how that will work or who will have 
final authority over medical operations. This approach ignores 
the adage that when everyone is in charge, no one is in charge.
    A related weakness is that the core Federal medical asset, 
the National Disaster Medical System, is currently a part of 
DHS. To lead a medical response, therefore, HHS has to rely on 
personnel, supplies, equipment, and communications systems that 
are actually controlled by the Department of Homeland Security. 
Well, this is the same arrangement--medical assets separated 
from those charged with leading the medical response--that was 
a major factor in the chaos after Hurricane Katrina.
    According to the administration officials, there is a plan 
to move the National Disaster Medical System out of DHS to HHS. 
But these plans are not imminent. We cannot afford to wait 
until next year to be ready with a medical response.
    Preparing for a flu pandemic will not be easy, and the 
Federal plans will change as we learn more about the threat and 
the best means of response. But the Nation has a right to 
expect that the Federal Government will not repeat its 
mistakes, which is what it seems intent on doing.
    One important part of the Federal response is ensuring 
continuity of operations, and I would like to thank 
Representative Danny Davis for his leadership in this area. 
Today, he will introduce legislation that would require the 
Federal Government to establish a demonstration project to test 
and evaluate telework from alternate work sites, including from 
employees' homes.
    This demonstration project will be important for our 
understanding of the effectiveness of telework and will give us 
an opportunity to identify and fix problems that arise.
    I want to thank the witnesses for coming today, and I look 
forward to your testimony.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T8533.080
    
    [GRAPHIC] [TIFF OMITTED] T8533.081
    
    [GRAPHIC] [TIFF OMITTED] T8533.082
    
    [GRAPHIC] [TIFF OMITTED] T8533.083
    
    Chairman Tom Davis. Thank you, Mr. Waxman.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Chairman, one, thank you for having this hearing. In 
this same room--and it is very eerie because I look around, and 
I don't see any TV media here. We are talking about one of the 
biggest issues, in my judgment, facing our country. Not unlike 
a hearing, I had a few years ago where a doctor of a major 
medical magazine said his biggest fear was that a small group 
of scientists would create an altered biological agent that 
would wipe out humanity as we know it.
    If we know that influenza killed approximately 30,000 to 
50,000 persons a year in the United States and 1 million to 3 
million Nation (sic) wide when you don't have a pandemic, and 
when we realize that we have had 10 pandemics in the last 300 
years--the one most severe in 1919, when our population was one 
third the size worldwide, and we lost 50 million to 100 million 
people--it should get our attention. And it is getting the 
attention of this committee, and it is getting the attention of 
some in Government.
    But I think what we are going to find is that we need a 
much more unified effort to make sure that we minimize the 
deaths we know will occur. And I just salute you and others who 
are working on this. This is a very, very important hearing we 
are having today, and the work of the people that are appearing 
before us can't be measured lightly.
    Chairman Tom Davis. Thank you very much.
    Any other Members wish to make opening statements?
    Ms. Watson. Mr. Chairman.
    Chairman Tom Davis. Yes, ma'am? The gentlelady from 
California.
    Ms. Watson. I, too, want to thank you for this hearing.
    Biological preparedness is considered crucial in the 
current world climate. Our Government has no control over a 
natural phenomena that will threaten citizens every year. But 
the Government Reform Committee has an important public service 
to perform in regard to preparedness for a flu pandemic.
    Flu pandemic has the ability to cause death in catastrophic 
proportions. On one hand, Government should not place the 
public into a state of fear. But on the other hand, Government 
should educate the public and have a clear plan for action in 
case of an outbreak.
    Do we have a plan in place? Has this administration and 
Congress fully funded the resulting solution? Do we have the 
domestic manufacturing capability to cover the needs of the 
United States during a crisis?
    Only one of the two FDA-approved flu vaccine manufacturers 
in America, and Chevron Corp. does not have a production 
facility located on the U.S.-controlled soil.
    Mr. Chairman, the administration's May 3, 2006, 
Implementation for the National Strategy for Pandemic Influenza 
leaves too many concerns. The complete breakdown of DHS 
leadership, responsiveness, and accountability during the 
Hurricane Katrina places congressional oversight into question 
if we allowed a similar structure to be approved. ``Fool me 
once, shame on you. But fool me twice''--we are approaching a 
hurricane season again. Is the DHS structure equipped to handle 
the elemental fury of mother nature again--are we prepared--
much less at the same time as her biological scorn?
    So, Mr. Chairman, I am looking forward to today's testimony 
and the positive solutions that our witnesses can provide. The 
President has requested $7.1 billion, and the Congress 
appropriated $3.8 billion in the DOD appropriations act. Is the 
funding sufficient?
    I am interested to hear the panel's assessment of the Danny 
Davis legislation, the Continuity of Operations Demonstration 
Project Act. We need a much better system in place to 
accommodate a flu pandemic or a large natural disaster 
situation.
    So let us put a plan in place that answers the questions 
and not creates them. I yield back the balance of my time.
    Chairman Tom Davis. Thank you very much.
    Members will have 7 days to submit opening statements for 
the record.
    Mr. Davis, do you want to say anything?
    Mr. Davis of Illinois. Yes. Thank you very much. Thank you, 
Mr. Chairman.
    I want to thank you and Ranking Member Waxman for calling 
this hearing and for your leadership of the Government Reform 
Committee.
    In the late 1990's, the Government Reform and Education and 
the Workforce Committees held oversight hearings to examine the 
barriers to telecommuting and the development and promotion of 
telework programs by Federal agencies.
    It was then thought that the primary benefits of 
telecommuting were a reduction in traffic congestion and 
pollution, improvements to the recruitment and retention of 
employees, a reduction in the need for office space, increased 
worker productivity, and improvements to the quality of life 
and morale of Federal employees.
    These benefits continue to be compelling and valid reasons 
for implementing agency-wide telework programs. Representative 
Frank Wolf is to be commended for continuously pushing agencies 
to increase the number of Federal employees who telecommute.
    However, with the Oklahoma City bombing, September 11th, 
Hurricane Katrina, and now the possibility of a pandemic, we 
have other very compelling reasons to push Federal agencies and 
ourselves to develop and to implement the infrastructure and 
work processes necessary to support telecommuting.
    Federal agencies must be able to continue operations during 
an emergency. The question we must ask ourselves is this. In 
the event of an emergency, are we--this committee, our staffs, 
and all of the Federal agencies--prepared to serve the American 
people if our primary places of work are no longer available to 
us?
    In conjunction with this hearing, the Government 
Accountability Office [GAO], will issue a report entitled 
``Continuity of Operations.'' Selected agencies could improve 
planning for use of alternate facilities and telework 
descriptions. From the population of alternate facilities, GAO 
selected six to evaluate for compliance with Federal 
Preparedness Circular [FPC] 65 guidance.
    The report, which was requested by Chairman Tom Davis, 
found that most of the agencies' documented plans and 
procedures related to alternate facilities included site 
preparation and activation plans. However, none of the agencies 
had conducted all of the applicable tests and exercises 
required by FPC 65, including annual exercises that incorporate 
deliberate and pre-planned movement of COOP personnel to an 
alternate facility.
    Further, agencies did not fully identify the levels of 
resources necessary to support essential functions, thereby 
creating the lack of assurance that facilities are adequately 
prepared.
    Today, I will introduce legislation that will push agencies 
to address the contingency planning failures detailed in GAO's 
reports. The legislation, a modified version of H.R. 4797, 
which I introduced in the 108th Congress, would require the 
chief human capital officer to conduct and to evaluate a 10-day 
demonstration project that broadly uses employees' 
contributions to an agency's operations from alternate work 
locations, including home.
    The outcome of the demonstration project would provide 
agencies and Congress with approaches to gaining flexibility 
and to identifying work processes that should be addressed 
during an extended emergency. The number and types of potential 
emergency interruptions are unknown, and we must be prepared in 
advance of an incident with the work processes and 
infrastructures needed to establish agency operations.
    In a world where anything is possible, we must be prepared 
for all of the possibilities, and I trust that Chairman Davis 
will join with Ranking Member Waxman and others to co-sponsor 
this bill.
    And I thank you, Mr. Chairman, and yield back the balance 
of my time.
    Chairman Tom Davis. Thank you. Well, I probably will.
    We have a vote on. I have sent Mr. Shays over to vote so he 
can come back. And when he comes back, hopefully, we can keep 
this moving because I know we have some time constraints on 
some of our witnesses.
    Anybody else need to make an opening statement? Mr. 
Kucinich.
    Mr. Kucinich. I thank the gentleman.
    ``You are on your own.'' That has been the credo for the 
administration's approach to health care, and it summarizes 
their approach to avian flu. The implementation plan gives a 
little guidance to State and local governments and businesses 
and then wishes them luck.
    First, there is the leadership vacuum. The plan calls for 
HHS to coordinate the medical response, but calls for Homeland 
Security to coordinate Federal operations and resources.
    A bipartisan report out of the Senate released in April 
found that the department has lagged in fixing the problems 
that plagued its atrocious response to Hurricane Katrina. It 
found that major structural reforms were necessary and that 
little has changed in the department so far.
    So how can we expect Homeland Security to adopt a similar 
motto to the one they adopted last summer? The point is we can 
expect them to adopt that motto. ``You are on your own.''
    What is more is that the plan has been called ``the mother 
of all unfunded mandates.'' While $7.1 billion for avian flu 
preparedness is a step in the right direction, it is simply not 
enough. Dr. Irwin Redlener, director of the National Center for 
Disaster Preparedness at Columbia University's Mailman School 
of Public Health, called the budget ``completely unrealistic.''
    A big part of the reason it is insufficient is that it has 
to make up for years of steady erosion of the public health 
infrastructure due to lack of funding. In fact, Dr. Redlener 
points out the need for $5 billion just for staff, equipment 
and supplies, and general resiliency. Yet the vast majority of 
the administration's funding is going toward the antiviral and 
vaccine stockpile.
    This plan, therefore, gives us inadequate leadership and 
inadequate funding, which leaves the clear impression that we 
truly will be on our own in a pandemic. And a crisis is 
precisely the time we need to look out for each other the most.
    However, we can be assured that everyone is not left to his 
or her own devices. On November 4, 2005, in front of this 
committee, HHS Secretary Michael Leavitt stated during the Q&A 
that he would not be issuing a compulsory license for the 
antiviral drug Tamiflu. He also declared that he was in 
negotiation with Roche, manufacturer of Tamiflu, over the cost 
of the drug being purchased for the national stockpile.
    On one hand, Secretary Leavitt has a congressional mandate 
to stockpile enough Tamiflu for 25 percent of the Nation. On 
the other hand, he withdrew the threat of compulsory licensing 
even if Roche tries to price gouge. In doing so, Mr. Leavitt 
undercut his own negotiating power and effectively surrendered 
control of the price to Roche.
    On November 10th, 6 days after the hearing, the New York 
Times reported that Roche announced they would be charging 
developed countries for Tamiflu 15 euros or about $19 for a 
course of treatment. Wondering how the price negotiations 
between HHS and Roche went, my office recently asked HHS what 
they were paying for Tamiflu for the stockpile--the asking 
price of 15 euros or $19?
    Even with the bulk purchasing power of 810 million pills, 
HHS did not bother to get a better deal than the asking price. 
Lest you get the impression that this price is fair, allow me 
to point out that Roche did not sink a dime into research on 
their drug. They simply licensed it from its inventor, Gilead 
Sciences. That means there is no need to recoup research costs.
    Furthermore, we know it can be sold for a profit for much 
less. Cipla, a generics manufacturer in India, for example, is 
selling Tamiflu for only $12. That is 36 percent less than what 
the Federal Government here is paying. If we paid Cipla's price 
instead of Roche's, we would save over a half billion dollars.
    Now I bet local health agencies and hospitals could save a 
lot of lives with that kind of money. Think of what we could do 
with a half billion dollars. We could reduce the deficit, put 
teachers in classrooms, invest in renewable energy, provide 
health care to some of the uninsured.
    Those that stand to gain from the inflated prices for 
pandemic pharmaceuticals are doing well. Roche's sales for the 
first quarter of 2006 are up 22 percent to $7.7 billion. Gilead 
Sciences, the company that originally developed Tamiflu and 
continues to receive royalties on its sales, outperformed RBC 
Capital Markets estimate of $350 million in Tamiflu sales by 
$163 million.
    In essence, we are telling State and local governments 
there is not enough money to fund things like medical personnel 
and equipment while we are giving away bags of money to the 
already incredibly profitable pharmaceutical industry. In other 
words, you are on your own unless you are a big pharma.
    Thank you. I yield back.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T8533.003

[GRAPHIC] [TIFF OMITTED] T8533.004

[GRAPHIC] [TIFF OMITTED] T8533.005

[GRAPHIC] [TIFF OMITTED] T8533.006

[GRAPHIC] [TIFF OMITTED] T8533.007

    Chairman Tom Davis. Thank you.
    The gentleman from Maryland?
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding this critically important hearing.
    Hurricane Katrina demonstrated with abundant clarity that 
Government incompetence and poor preparation during a time of 
national peril are not victimless crimes. Those failures, 
coupled with the Government's inability to secure sufficient 
quantities of vaccine courses in a recent flu season, compel us 
to rigorously question our Nation's pandemic flu and continuity 
of operations plans.
    It should give us all pause that a pandemic could result in 
the deaths of over 500,000 Americans and infect 25 percent of 
the world's population. The Baltimore Sun on June 12, 2005, 
reported in an article entitled ``Fears of Flu Pandemic 
Spurring Preparations'' that, ``The threat of an avian flu 
pandemic from Asia could cause 12,000 deaths in the State of 
Maryland early on, with the possibility of many, many more 
later.''
    Make no mistake. Such a loss of life would fundamentally 
undermine our economy and our society. With H5N1 considered 
likely to cause a global pandemic, the time is long overdue for 
our Nation to have a comprehensive plan to withstand the 
onslaught of a pandemic.
    The White House recently released the Implementation Plan 
for the National Strategy for Pandemic Influenza in an effort 
to provide clarity to the public and to private entities about 
their respective roles and responsibilities. Unfortunately, 
this plan suffers from critical deficiencies that need to be 
immediately addressed.
    To begin, I am concerned that the Department of Homeland 
Security is charged with coordinating all Federal operations 
and assets. In no uncertain terms, DHS failed to ably respond 
to Hurricane Katrina. Nearly a year later, calls for major 
structural reforms and a substantive change in leadership at 
DHS have fallen on deaf ears.
    With a pandemic being described as ``Hurricane Katrina 
hitting all of America at the same time,'' how can we be 
confident in DHS's ability to coordinate effectively, dispense 
resources rapidly, or provide the type of leadership needed to 
steer this Nation out of a flu pandemic?
    Second, the plan fails to identify a specific individual at 
the White House who is charged with the Federal response 
coordination. As illustrated in Hurricane Katrina, the lack of 
an identified ultimate decisionmaker at the White House could 
result in, one, unnecessary delays in addressing the needs of 
State and locals and, two, an unnecessary delay in 
comprehending the scope of human suffering and a loss of life 
in devastated communities on the ground.
    Furthermore, the plan disturbingly fails to specify how 
States ought to distribute limited supplies of vaccines and 
antivirals. Make no mistake, who and under what conditions 
citizens get vaccinated or medicated with antivirals in the 
midst of a flu pandemic will be one of the greatest challenges 
that confront all levels of government.
    Indeed, those decisions will literally be a matter of life 
and death for many, and it is not enough to say the Federal 
Government is working with the State governments to establish 
distribution plans.
    And finally, Mr. Chairman, I am also deeply concerned that 
this Congress could find $70 billion for tax cuts that will 
disproportionately benefit the wealthy, but could not find the 
resources or the will to fully fund $7.1 billion requested to 
expand our vaccine capacity, purchase antivirals, conduct 
research, and support State and local preparedness.
    The American people are closely watching how its Government 
responds to this challenge. One that will no doubt test the 
wisdom of our priorities, our ability to effectively govern in 
a time of international crisis, and the firmness of our resolve 
to protect our citizens from threats both seen and unseen.
    These threats demand that we improve our preparedness 
efforts on everything from ensuring our governmental entities 
are clear as to their roles and responsibilities, to 
strengthening our continuity of operation plans that are 
essential to keeping Government up and running in the wake of a 
disaster.
    And with that, Mr. Chairman, I thank you, and I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T8533.084

[GRAPHIC] [TIFF OMITTED] T8533.085

[GRAPHIC] [TIFF OMITTED] T8533.086

[GRAPHIC] [TIFF OMITTED] T8533.087

    Chairman Tom Davis. Thank you, gentlemen.
    We now welcome our witnesses. We have before us the 
Honorable David M. Walker, who is the Comptroller General of 
the GAO. We have the Honorable John O. Agwunobi, Assistant 
Secretary for Health, Department of Health and Human Services. 
The Honorable Jeffrey W. Runge, Acting Under Secretary for 
Science and Technology, Chief Medical Officer, Department of 
Homeland Security. The Honorable Linda Springer, Director, 
Office of Personnel Management.
    Thank you all for being here. As you know, we swear you all 
in. So if you would rise?
    [Witnesses sworn.]
    Chairman Tom Davis. I would note for the record that our 
witnesses have responded in the affirmative.
    Comptroller Walker, you have the floor. Thank you for being 
here.
    And it is my understanding that you have convened a GAO-
sponsored conference on Inspector General Act, and that Linda 
Koontz, Director for Information Management Issues for GAO, 
will remain and answer our questions. Did she stand to be sworn 
in?
    Mr. Walker. She did, Mr. Chairman.
    Chairman Tom Davis. OK. Well, that is great. Thank you for 
doing that.
    So you have a statement and then will be replaced by 
someone who will ably be able to answer the questions as well.
    Mr. Walker. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you, Mr. Walker.
    Mr. Walker. I want to thank you, and I want to thank the 
staff for your understanding.
    The Congress had asked me to convene a panel on the IG Act. 
I am chairing it. It is going on right now, and so I appreciate 
your indulgence.
    Chairman Tom Davis. It is easy to understand, and we 
appreciate and the staff appreciates you even being here.

STATEMENTS OF DAVID M. WALKER, COMPTROLLER GENERAL, GOVERNMENT 
ACCOUNTABILITY OFFICE, ACCOMPANIED BY LINDA D. KOONTZ, DIRECTOR 
 FOR INFORMATION MANAGEMENT ISSUES; LINDA SPRINGER, DIRECTOR, 
    OFFICE OF PERSONNEL MANAGEMENT; JOHN O. AGWUNOBI, M.D., 
ASSISTANT SECRETARY FOR HEALTH, DEPARTMENT OF HEALTH AND HUMAN 
 SERVICES; AND JEFFREY W. RUNGE, M.D., ACTING UNDER SECRETARY 
 FOR SCIENCE AND TECHNOLOGY, CHIEF MEDICAL OFFICER, DEPARTMENT 
                      OF HOMELAND SECURITY

                  STATEMENT OF DAVID M. WALKER

    Mr. Walker. Thank you very much.
    I appreciate the opportunity to participate in the 
committee's hearing on pandemic influenza and continuity 
planning. As each of you are well aware, the Government plays 
many important roles in responding to emergency situations, 
such as natural disasters, terrorist events, and pandemic flu 
outbreaks should they occur.
    But in order to provide both direct emergency response as 
well as other essential services, Government agencies must be 
positioned to continue functioning even when the agencies 
themselves are disrupted. Accordingly, agencies are required to 
develop plans to ensure continuity of operations, or so-called 
COOP plans.
    In preparing such plans, the executive branch agencies are 
to follow guidance that is issued by the Federal Emergency 
Management Agency [FEMA]. In developing COOP plans, a 
potentially useful option is telework. That is employees 
performing work from remote sites, often their homes or another 
location that is not a traditional office.
    As we pointed out in April 2004, telework offers potential 
benefits to employers, employees, and society as a whole in the 
normal course of operations. It is also important and a viable 
option for Federal continuity planning, especially as the 
duration of an emergency is extended, which would be the case 
if a flu pandemic were to come to the United States.
    According to health experts, absentee rates in a pandemic 
could reach 40 percent during peak periods. The need for care 
for family members, the need to deal with the illness, and the 
fear of infection would have a broad-based effect within the 
country.
    In such a situation, the use of telework or other means to 
avoid unnecessary contacts among people, which is referred to 
as social distancing measures, is clearly appropriate. This is 
recognized by recent executive branch guidance recommending 
social distancing measures, such as telework and public health 
interventions, to control and contain infection during a 
pandemic outbreak.
    GAO recognizes the importance of telework in continuity 
planning and is striving to lead by example on these issues. 
For example, about 13.5 percent of GAO employees used telework 
last year, as compared to 5.2 percent for Federal civilian 
employees in 2004.
    Furthermore, our current telework policy allows me, during 
certain emergencies, to approve telework for all employees in 
an affected area to promote continuity of operations. We are 
also completing a supplement to our COOP plan that addresses 
preparation specific to a pandemic and are coordinating our 
continuity planning efforts with those of other legislative 
branch agencies and of Congress as a whole.
    As per your request, the balance of my remarks will focus 
on the report that we are issuing today, which was referred to 
by Mr. Davis. In 2005, we previously issued a report based upon 
a survey of Federal officials responsible for continuity 
planning at 23 major agencies. For the current report, we 
basically reissued the same survey in order to try to be able 
to get an update and find out what type of progress has been 
made.
    This time, more agencies reported plans for essential team 
members to telework during the COOP event than in the previous 
survey. However, only a few of the agencies documented that 
they had made the necessary preparations to effectively use 
telework during an emergency.
    For example, although 9 of 23 agencies reported that they 
expected some of their essential team members to telework 
during a COOP event, only 1 agency documented that it had 
notified its team members of this expectation. In addition, 
none of the 23 agencies demonstrated that it could ensure 
adequate technological capacity to allow designated personnel 
to telework during an emergency, and only 3 of 23 agencies 
documented that they had actually tested the ability of their 
staff to telework effectively during an emergency.
    One reason why agencies reported these low levels of 
preparation for telework is that none of FEMA's COOP guidance 
addresses the steps that agencies should take to ensure that 
they are fully prepared to use telework during a COOP event. In 
2005, when we reported on the previous survey, we recommended 
that FEMA develop such guidance in consultation with the Office 
of Personnel Management. Unfortunately, this guidance has yet 
to be created.
    This guidance suggests the use of telework and recommends 
that agencies consider which essential functions should be 
performed from remote locations, such as employee homes. That's 
the most recent guidance that the agency--that the executive 
branch has issued.
    However, the guidance still does not address the steps that 
agencies should take when preparing to use telework during an 
emergency. For example, it does not address certain necessary 
preparations, such as informing designated staff that they are 
expected to telework or providing them with adequate technical 
resources and support to make it effective.
    If agencies do not make adequate preparations, they may not 
be able to use telework effectively to ensure the continuity of 
their essential functions in emergencies, including in the 
event of a pandemic influenza. Accordingly, we recommended in 
our report that FEMA establish a timeline for developing such 
guidance. DHS partially agreed with our recommendation and 
stated that FEMA will cooperate with OPM in developing this 
timeline.
    Last week, the White House released an Implementation Plan 
in support of the National Strategy for Pandemic Influenza. 
This plan calls for OPM to work with DHS and other agencies to 
revise existing telework guidance and to issue new guidance on 
human capital planning and COOP planning. The plan establishes 
an expectation that these actions will be completed within the 
next 3 months. We'll see.
    We are encouraged that DHS has now established a timeline 
for issuing revised telework guidance. However, unless the 
forthcoming guidance addresses the necessary preparations, 
agencies may not be able to use telework effectively to ensure 
the continuity of essential functions.
    On the other hand, if they prepare telework effectively, 
agencies could enable both essential and nonessential employees 
to contribute to agency missions during the extended 
emergencies, including a pandemic influenza.
    Mr. Chairman, thank you very much. And I obviously will 
make Ms. Koontz available for any questions that you may have 
or the other members of the committee.
    [Note.--The May 2006 GAO report entitled, ``Continuity of 
Operations, Selected Agencies Could Improve Planning for Use of 
Alternate Facilities and Telework during Disruptions,'' GAO-06-
713, may be found in committee files.]
    [The prepared statement of Mr. Walker follows:]

    [GRAPHIC] [TIFF OMITTED] T8533.008
    
    [GRAPHIC] [TIFF OMITTED] T8533.009
    
    [GRAPHIC] [TIFF OMITTED] T8533.010
    
    [GRAPHIC] [TIFF OMITTED] T8533.011
    
    [GRAPHIC] [TIFF OMITTED] T8533.012
    
    [GRAPHIC] [TIFF OMITTED] T8533.013
    
    [GRAPHIC] [TIFF OMITTED] T8533.014
    
    [GRAPHIC] [TIFF OMITTED] T8533.015
    
    [GRAPHIC] [TIFF OMITTED] T8533.016
    
    [GRAPHIC] [TIFF OMITTED] T8533.017
    
    [GRAPHIC] [TIFF OMITTED] T8533.018
    
    [GRAPHIC] [TIFF OMITTED] T8533.019
    
    Chairman Tom Davis. Thank you, Mr. Walker.
    If you don't mind just coming up here a quick second, we 
will start with you, Ms. Springer. Thank you.

                  STATEMENT OF LINDA SPRINGER

    Ms. Springer. Thank you, Mr. Chairman and members of the 
committee.
    OPM appreciates being invited to testify before this 
committee today about the steps we are taking to prepare the 
Federal Government as an employer for the possibility of a 
pandemic influenza.
    The President's Implementation Plan for the National 
Strategy for Pandemic Influenza tasks OPM with developing 
appropriate guidance on human resources management policies 
relating to a possible flu epidemic. In addition, the 
implementation plan directs OPM to update three existing 
telework guides.
    We've approached these tasks with a set of guiding 
principles in mind. First, that we should cause no harm. In 
other words, don't induce any panic or contribute to that type 
of atmosphere in the Federal work force while, at the same 
time, maintaining a sense of urgency.
    Communication will be a key to carrying out our role. Our 
communications with Federal agencies and employees on these HR 
issues relating to a possible pandemic epidemic would be 
credible, clear, timely, frequent, visible, and sensitive.
    In coordination with the White House, we will consult with 
other key departments and agencies, as well as the Chief Human 
Capital Officers Council and the Federal executive boards, to 
identify the issues to be addressed in our guidance materials 
and the audiences to which these materials should be directed.
    Our policies will strike an appropriate balance between the 
institutional interests of the Federal Government as an 
employer and the needs and concerns of individual Federal 
employees and their families.
    Finally, we will draw on OPM's considerable experience in 
providing advice and assistance to Federal agencies and 
employees in emergency situations. The internal pandemic 
working group we have already established at OPM has been at 
work identifying categories of human resource issues for which 
guidance already exists, needs revision, or should be 
developed.
    We've been aided in this process by keeping an inventory of 
questions we've already received from Federal HR professionals 
and from individual employees. I'd like to share a couple of 
those with you and give you a sense----
    Mr. Shays [presiding]. I am going to interrupt you and ask 
you, Mr. Walker, why don't you get on your way? Because you 
have things you have to do.
    Mr. Walker. Thank you, Mr. Chairman.
    Mr. Shays. Thank you. You are making me nervous here. 
[Laughter.]
    I am sorry to interrupt you.
    Ms. Springer. We've received so far dozens of questions 
from employees from HR professionals in the Federal Government. 
I will give you a couple of examples, and you'll get the flavor 
of this.
    Question No. 1, what kinds of alternative work arrangements 
are available to assist agencies and employees in accomplishing 
a critical agency mission during a pandemic influenza?
    Local health officials have confirmed that since the 
children in my son's daycare center have been exposed to the 
flu, their families have also been exposed to the virus. My 
child is not yet sick. What leave may I take to care for my 
child?
    Another one. My elderly mother died due to complications 
from the flu. I have to make arrangements for and attend her 
funeral. May I use sick leave?
    If I have been designated as an emergency employee, may I 
refuse to report for work if I don't think it is safe to do so?
    And these go on and on and on. And that's been an ongoing 
indicator to us of the concern and the interest at all levels 
throughout the civilian work force.
    So while we have not yet finalized answers to these 
questions and the others that we've received, or completed our 
consultation with other Federal departments and agencies, it is 
clear that our guidance materials must include information on 
alternative work arrangements.
    We're also keenly aware of this committee's interest in 
ensuring that Federal agencies take appropriate steps to 
integrate telework policies into their continuity of operations 
plans. And let me assure you that we will include a discussion 
on teleworking options and policies in our guidance to Federal 
agencies, as we're required to do under the President's plan.
    Our guidance will also describe relevant leave and work 
scheduling policies, as well as other benefits and 
flexibilities designed to assist Federal employees in the event 
of a pandemic influenza. In addition, our guidance will include 
information on hiring flexibilities and additional categories 
of guidance that we will identify as our review continues.
    OPM is on track to meet the 3-month deadline specified in 
the President's implementation plan. In addition, we anticipate 
and plan to release some information interimly during that 90-
day period.
    It is important to note that OPM must prepare to carry out 
its own responsibilities in the event of a pandemic influenza. 
We will be practicing our plan for continuing to carry out the 
work that Congress and the President have entrusted to us. We 
expect that what we learn from these efforts will help inform 
the guidance we provide to other Federal agencies and 
employees.
    Mr. Chairman, I appreciate again the opportunity to testify 
today and look forward to any questions you may have.
    [The prepared statement of Ms. Springer follows:]

    [GRAPHIC] [TIFF OMITTED] T8533.020
    
    [GRAPHIC] [TIFF OMITTED] T8533.021
    
    [GRAPHIC] [TIFF OMITTED] T8533.022
    
    [GRAPHIC] [TIFF OMITTED] T8533.023
    
    Mr. Shays. Thank you.
    I want to make sure I am pronouncing your name correctly. 
It is Dr. Agwunobi?
    Dr. Agwunobi. That is correct.
    Mr. Shays. Thank you. Your mic needs to be on. So you have 
to hit that button there.
    Dr. Agwunobi. That is correct.
    Mr. Shays. Thank you. Lovely to have you here. Thank you. 
You have the floor.

              STATEMENT OF JOHN O. AGWUNOBI, M.D.

    Dr. Agwunobi. Thank you, Mr. Chairman and members of the 
committee, for this opportunity to testify before you on the 
critically important subject of pandemic influenza 
preparedness.
    Pandemics are, indeed, a fact of life, a reality of living 
on this planet. They have occurred numerous times in the past, 
and they will likely, unfortunately, occur in the future.
    Our ultimate goal must, therefore, be to achieve a 
constant, yet flexible state of national preparedness, an 
enduring national ethic of readiness for any and, indeed, for 
all hazards.
    If the next pandemic is anything like the one that we 
experienced as a planet in 1918, I know currently of no nation 
that can credibly claim to be ready today. Therefore, much work 
remains to be done.
    We hope and pray that the next pandemic is a mild one. But 
as my colleague Julie Gerberding often says at the CDC, hope is 
not a strategy, and prayer is not a plan. More, quite frankly, 
is expected of Government.
    Fortunately, some recent modeling shows that with 
aggressive Nation-wide preparedness, exercised readiness--not 
just a paper plan, but an exercised plan--and an unhesitant 
leadership when the alarm bell rings, that we can actually 
manage our way through a pandemic, greatly reducing its 
negative impact on individuals and our community.
    We learn more with each passing day. And as we learn, we 
will continue to strengthen our planning and our preparedness.
    On November 1, 2005, the President announced the release of 
the National Strategy for Pandemic Influenza, including a 
request for $7.1 billion to fund that strategy. Already $3.8 
billion has been appropriated, and our journey of preparedness 
is now well underway.
    This month, the White House released a more detailed 
implementation plan that delineates 300 critical preparedness 
tasks for agencies of Government and the private sector. Of 
these, 199 are assigned to the department--the U.S. Department 
of Health and Human Services.
    HHS is clearly identified as being in charge of all the 
public health and medical aspects of preparedness and our 
response in a pandemic, and we work very closely with our 
sister agency, the Department of Homeland Security.
    We have international and domestic responsibilities. Our 
efforts abroad involve the strengthening of international 
public health and medical partnerships and cooperation, global 
surveillance, and rapid response--the building of rapid 
response capabilities and enhanced capacity globally to 
respond.
    Our efforts at home include improved intra- and interagency 
collaboration, coordination, at both the horizontal and 
vertical level across public health in medical communities, the 
continued strengthening of surge capacity across the Nation, 
enhanced domestic surveillance, and improved State and local 
planning and exercising of those plans, including a recent 
effort to reach out to every State in the form of pandemic 
summits in which the Secretary himself participated. We've now 
completed 49, and we continue to reach those that we haven't 
got to yet.
    We focus and recognize the importance of preparedness of 
individuals and families in this movement to develop a nation 
prepared for a pandemic. The development of clear and open risk 
communication is an essential strategy and a part of our plan.
    Our efforts include the stockpiling of pre-pandemic H5N1 
vaccine and efforts to build our capacity to provide 300 
million pandemic vaccine courses within 6 months of the 
declaration of a pandemic. Our strategy includes efforts to 
promote scientific research and to advance technology used in 
vaccine development and manufacturing. While we are working to 
stockpile antiviral drugs, we are also investing in the search 
for new and improved antiviral alternatives.
    We are working to further the search for rapid, accurate, 
yet portable diagnostic tests for H5N1, and we continue to 
stockpile other drugs and resources, including ventilators and 
personal protective equipment.
    In conclusion, Mr. Chairman, preparedness is a journey, not 
a destination. It's a journey that must be Nation wide, involve 
Federal, State, and local leaders in partnership, and include 
every sector of society. Every individual, every community must 
do their part.
    In combination, our efforts to prepare for a pandemic can 
and will have a dramatic impact on even the worst type of 
pandemic. But it may also help us resolve the recurring 
problems that we have seen in recent years with seasonal flu 
vaccine distribution and perhaps even reduce the dramatic 
numbers of citizens lost each year to seasonal influenza. As 
you know, sir, on average about 36,000 lives are lost per year.
    Preparedness for a pandemic makes us a nation better 
prepared for any and all hazards, man made or natural. We're 
better prepared today than we were yesterday, and Mr. Chairman, 
I have no doubt we will be better prepared as a nation tomorrow 
than we are today.
    Thank you.
    [The prepared statement of Dr. Agwunobi follows:]

    [GRAPHIC] [TIFF OMITTED] T8533.024
    
    [GRAPHIC] [TIFF OMITTED] T8533.025
    
    [GRAPHIC] [TIFF OMITTED] T8533.026
    
    [GRAPHIC] [TIFF OMITTED] T8533.027
    
    [GRAPHIC] [TIFF OMITTED] T8533.028
    
    [GRAPHIC] [TIFF OMITTED] T8533.029
    
    [GRAPHIC] [TIFF OMITTED] T8533.030
    
    [GRAPHIC] [TIFF OMITTED] T8533.031
    
    [GRAPHIC] [TIFF OMITTED] T8533.032
    
    [GRAPHIC] [TIFF OMITTED] T8533.033
    
    [GRAPHIC] [TIFF OMITTED] T8533.034
    
    [GRAPHIC] [TIFF OMITTED] T8533.035
    
    [GRAPHIC] [TIFF OMITTED] T8533.036
    
    [GRAPHIC] [TIFF OMITTED] T8533.037
    
    [GRAPHIC] [TIFF OMITTED] T8533.038
    
    [GRAPHIC] [TIFF OMITTED] T8533.039
    
    [GRAPHIC] [TIFF OMITTED] T8533.040
    
    Mr. Shays. Thank you.
    Before you jump in, Mr. Runge, I have heard three kind of 
memorable statements. Hope is not a strategy. Prayer is not a 
plan. Preparedness is a journey, not a destination.
    So I want to add mine. When one of the witnesses says, ``We 
are taking steps in the right direction,'' I want to remind you 
of what former senator Sam Nunn, his observation, said. It is 
often not enough to take steps in the right direction. A 
gazelle running from a hungry cougar is ``taking steps in the 
right direction.'' But survival in that case, and in ours, is 
more a matter of speed than direction.
    So the question isn't just are we doing the right things, 
but are we doing them in time? The sense of urgency is as 
critical against a pandemic flu as the plan to fight the 
outbreak.
    So now I have added mine. And Mr. Runge, you can add one, 
too, if you care to. [Laughter.]

                 STATEMENT OF JEFFREY W. RUNGE

    Dr. Runge. Thank you, Mr. Chairman.
    I would like to add that my name is Jeff Runge, R-U-N-G-E. 
Yes, sir. Thank you very much for the chance to----
    Mr. Shays. Mr. Runge, I apologize.
    Dr. Runge. That's no problem.
    Mr. Shays. It is nice to have you here, Mr. Runge.
    Dr. Runge. I serve as the Chief Medical Officer for the 
Department of Homeland Security, as well as the Acting Under 
Secretary for Science and Technology. I am very pleased to be 
here with my colleague, Dr. Agwunobi, to discuss the role of 
DHS as the overall incident manager and the coordinator of the 
Federal response in the event of a flu pandemic.
    DHS is working very closely with its Federal partners--the 
HHS, Department of Defense, USDA, and the Veterans 
Administration, and the Homeland Security Council--to prepare 
for the worst and to ensure that we are coordinated. Together 
with our Federal partners, we understand our roles in managing 
the outbreak of disease, whether it's an outbreak that's 
confined to the bird population or whether it is a full-scale 
human pandemic.
    The USDA, with support from its State agriculture 
counterparts, will manage an outbreak in the bird population 
without help from DHS. HHS will manage the public health and 
medical aspects of an outbreak in the human population in 
prevention, response, and treatment. DHS will support HHS in 
fulfilling their responsibilities in any way we can.
    Now even though we recognize the need to be ready at the 
Federal level, Secretary Leavitt and Secretary Chertoff, as 
well as Dr. Agwunobi and I, have made the point on numerous 
occasions that preparedness for an incident such as this must 
be defined at the local level. We have stood shoulder to 
shoulder with our colleagues in HHS and USDA at nearly 50 State 
pandemic summits, discussing the need to work together with 
State and local governments, nongovernmental organizations, 
faith-based organizations, and the private sector to ensure a 
condition of readiness.
    Now the mechanism for coordination of a broad Federal 
response like this is the National Response Plan. The NRP 
supports the concept that incidents are handled at the lowest 
jurisdictional level, even as it provides the mechanism for a 
concerted national effort.
    Let me digress a moment into the likely scenario if a 
pandemic were to present serious and socioeconomic problems for 
the United States. The Secretary of Homeland Security, in 
consultation with other Cabinet members and the President, 
would likely declare an incident of national significance and 
implement the appropriate coordinating mechanisms. DHS is 
already ensuring that the appropriate multi-agency coordinating 
structures are in place well before an outbreak.
    As a threat becomes more imminent and as a situation 
warrants, the Secretary may consider activating various 
elements of the national response, including designating a 
principal Federal official [PFO] standing up the joint 
information center and joint field offices.
    Secretary Chertoff has already identified a candidate to 
become the national PFO for pandemic influenza. This individual 
will be intimately involved in the planning and exercising of 
all the contingency plans as we work toward the condition of 
readiness.
    In the event we are faced with a pandemic, the Secretary 
would also activate a national planning element composed of 
senior officials of relevant Federal agencies, who have already 
been identified, to coordinate strategic level national 
planning and operations. He would also likely establish as many 
as five regional joint field offices that would be staffed and 
resourced with a deputy principal Federal official in charge of 
each of these regional joint field offices to work directly 
with their State and local counterparts.
    Now this framework provides a coordinated response for all 
levels of Government, for non-Government agencies and volunteer 
organizations, and the private sector. This system also affords 
full coordination between joint regional field offices and the 
military joint task forces that might be established.
    In the event of a pandemic, obviously, a close, synchronous 
working relationship with HHS is absolutely essential. Our 
national public health and medical resources will 
unquestionably be taxed, probably beyond capacity. And DHS will 
do everything in its power to assist HHS with its mission.
    As our department's Chief Medical Officer, I am and will be 
the primary point of interface with HHS, as well as being 
Secretary Chertoff's advisor on all medical issues, including 
pandemic influenza.
    Implementation of the national strategy announced last week 
contains over 300 action items with very aggressive timelines. 
Dr. Agwunobi's department has 199 that they are responsible for 
primarily. We have 58, and we are supporting other departments 
in another 84 items. We are prioritizing them and figuring out 
how we can best carry them out.
    As the committee understands, the department has many 
competing priorities right now. But we are fully engaged to 
make sure that we are as prepared as we can be. In addition to 
our job as overall incident manager, we have some areas of 
unique responsibility to maintain the function of our Nation's 
critical infrastructures, border management, and DHS work force 
assurance.
    We are also focused on identifying the economic 
consequences to our Nation during the pandemic. These issues 
are interrelated as we consider policies related to the 
transportation industry, the flow of trade across borders, and 
maintenance of the supply chain for food and other goods.
    Mr. Chairman, as with any illness, prevention is by far the 
most effective method of dealing with this disease. We fully 
support the efforts of President Bush and the Department of HHS 
to improve our domestic vaccine production, to stimulate 
transformational change in vaccine technology, and to reinforce 
the capacity of State and local public health organizations, as 
well as educating the public on good health practices.
    And one last point, Mr. Chairman. I want to make the point 
that the best way to prepare for a pandemic is to strengthen 
the institutions that we use every day, namely, the public 
health medical and emergency services, as well as the support 
of medical science for new vaccines and therapeutics.
    The collateral benefits that we gain will improve our 
Nation's quality of life as well as our preparedness for any 
biological incident, whether it's man made or through a 
terrorist action.
    Thank you, Mr. Chairman. I will be happy to answer any 
questions.
    [The prepared statement of Dr. Runge follows:]

    [GRAPHIC] [TIFF OMITTED] T8533.041
    
    [GRAPHIC] [TIFF OMITTED] T8533.042
    
    [GRAPHIC] [TIFF OMITTED] T8533.043
    
    [GRAPHIC] [TIFF OMITTED] T8533.044
    
    [GRAPHIC] [TIFF OMITTED] T8533.045
    
    [GRAPHIC] [TIFF OMITTED] T8533.046
    
    [GRAPHIC] [TIFF OMITTED] T8533.047
    
    [GRAPHIC] [TIFF OMITTED] T8533.048
    
    [GRAPHIC] [TIFF OMITTED] T8533.049
    
    [GRAPHIC] [TIFF OMITTED] T8533.050
    
    [GRAPHIC] [TIFF OMITTED] T8533.051
    
    [GRAPHIC] [TIFF OMITTED] T8533.052
    
    [GRAPHIC] [TIFF OMITTED] T8533.053
    
    Chairman Tom Davis [presiding]. Thank you very much.
    Dr. Agwunobi, let me start with you. What lessons did HHS 
learn from Katrina and the 2005 hurricane season that can be 
applied to pandemic planning and preparedness?
    Dr. Agwunobi. I think there's one broad lesson that I think 
is very clear. And that is that a pandemic is fundamentally 
different than what we saw in Katrina. In Katrina, I think we 
realized that an essential part of our response was the 
rallying to the needs of those communities by the professionals 
and the first responders of other communities from around the 
Nation.
    In a pandemic, we envision that every community will be 
simultaneously facing the crisis of a pandemic and that there 
may be--in fact, it's probably guaranteed that there will be 
very limited ability for other States and other communities to 
rally to the aid of a community living through a pandemic.
    I think other lessons are obvious, and that is that we need 
to collaborate and strengthen our ability to work with health 
professionals within every community. Medical Reserve Corps was 
one that we used during Katrina and are building upon now. This 
notion that practitioners from across the Nation can be 
prepared to respond to the needs of their own communities if 
you organize them beforehand, credential them beforehand, and 
train them beforehand. And we're doing just that with the 
Medical Reserve Corps.
    I think, last, I'll just add that a great lesson learned 
and one that we will buildupon is this notion of a partnership 
between us and Homeland Security. The need to not only focus on 
the health and medical aspects of a pandemic, but also those 
other aspects of the community that might be affected, like 
critical infrastructure, electricity supplies, water supplies, 
and the like.
    Chairman Tom Davis. But given the decentralized nature of 
the U.S. public health system, much of the pandemic 
preparedness really needs to occur at the State and the local 
level. One of the problems of Katrina, of course, is we never 
got a unified command.
    How many State pandemic plans has CDC reviewed or approved?
    Dr. Agwunobi. I believe the CDC has actually reviewed all 
of the State pandemic plans to date. Clearly, those plans 
change with time. They're constantly being improved at the 
State level, and CDC is constantly reviewing the updated 
versions as they are submitted.
    Chairman Tom Davis. Is every State in compliance and has a 
plan at this point as far as you know?
    Dr. Agwunobi. Every State does have a plan, and those plans 
are being improved on a continual basis.
    Chairman Tom Davis. Do you have performance measures over 
these plans?
    Dr. Agwunobi. The CDC guidance that is being prepared to 
date and will be issued with--along with funds designated to 
enhance preparedness and exercising of those plans will contain 
detailed performance requirements and expectations.
    Chairman Tom Davis. The States found these guidelines 
helpful, do you think?
    Dr. Agwunobi. I think we're hearing back from the States 
that planning and preparedness is well underway. They recognize 
that, like every nation, that there's more that needs to be 
done. We're hoping and are beginning to see that these plans 
are going beyond the State, but they're now being developed 
into communities by local leaders, and that's very heartening.
    Chairman Tom Davis. And let me ask you, to what extent are 
you and the Department of Health and Human Services planning to 
use telework during a continuity of operations?
    Dr. Agwunobi. Our continuity of operations plan 
contemplates the need for telework and work at offsite 
settings. I fully expect that as we release our own 
implementation plan for the Department of Health and Human 
Services that it will contain in large part great plans for 
telecommuting.
    Chairman Tom Davis. Dr. Runge, as you saw during Hurricane 
Katrina, the National Response Plan can be ambiguous. 
Individual authorities among agencies were not always clearly 
identified. How are DHS and HHS using the lessons learned from 
Katrina to fix deficiencies in the National Response Plan so 
that the country is more rapidly prepared for future disasters?
    I will tell, in Katrina, not being there rapidly getting 
things together ended up costing lives and money. In this case, 
with a pandemic, time is critical and being able to move in. 
What have we learned here?
    Dr. Runge. That's obviously a great question, and it's one 
that we spent quite a bit of time.
    I had the--I would say it was a luxury, but it actually is 
not a luxury of joining the department after Katrina and 
working backward with my new colleagues who arrived on the 
scene after Katrina. And we were not happy either with the 
coordination that occurred with DHS and HHS, and we have taken 
tremendous steps in fixing that.
    The deputy secretaries of both agencies, together with our 
counterparts, have spent many hours talking about how we're 
going to improve the coordination and function of the Emergency 
Support Function 8, as well as my chief of staff has spent the 
last week in the Gulf States talking about how we are better 
coordinated with hurricane preparedness, playbooks. We are 
coming together with a pandemic--a playbook for pandemic.
    We've also, and I think you'll be interested in this, have 
been going department by department and talking about the 
importance of using the National Response Plan and that the 
plan is no good unless it's used.
    It may be no surprise that the tenets of the National 
Response Plan, perhaps because they are a bit ambiguous and 
unusual for the nonmilitary, such as myself, that we actually 
have to sit down and discuss how to operationalize that 
coordination. And I think that we are well on the way toward a 
completely bolted together HHS and DHS.
    The Office of the Chief Medical Officer was just created as 
a result of the second stage review, and they have a constant 
point of contact for all of these issues. I'm much more 
confident that we are better equipped not only for this 
hurricane season, but in the event of a pandemic.
    Chairman Tom Davis. OK. Thank you very much.
    To what extent is DHS planning to use telework during----
    Dr. Runge. One of our workgroups, Mr. Chairman, is 
continuity of Government, continuity of operations. We have 
quite a bit of expertise in the department. We've got an 
integrated team working on that issue, headed by Coast Guard 
Chief Medical Officer, Admiral Higgins.
    But I will say, in all fairness, that the other side of our 
agency, the Infrastructure Protection Office, has 
responsibility for the maintenance of the 17 critical 
infrastructures of which telecommunications is one, is looking 
very carefully at this issue.
    It's one thing to say that we'll all go home and use the 
Internet for work. It's another matter to make sure that the 
backbone is in place, that the last mile of copper going into 
neighborhoods will, in fact, withstand the increased traffic.
    Our Critical Infrastructure Partnership Office has had a 
couple of tabletops with the telecommunications industry 
involving this issue, and it turns out to be quite a more 
complex problem than simply saying, ``Guys, go home and log 
on.''
    Chairman Tom Davis. Absolutely.
    Ms. Springer, what happens if a Federal agency doesn't 
adequately incorporate telework in its COOP planning for a 
pandemic? In other words, what are the risks to that agency and 
the public if the agency isn't prepared to carry out its 
essential functions?
    Ms. Springer. Well, each agency, in my judgment, needs to 
have telework as a part of its COOP plan. And as the 
Comptroller mentioned, the GAO guidance is, in fact, exactly 
that, that is an important component. So it's hard for me to 
imagine that wouldn't be.
    The telework statute, as it exists right now, does not 
authorize OPM to regulate the telework program. So we aren't in 
the position to actually direct agencies to include it. But 
working with FEMA, I think----
    Chairman Tom Davis. Would you like to have that authority?
    Ms. Springer. I think someone needs to have it.
    Chairman Tom Davis. OK.
    Ms. Springer. But I think certainly from an emergency 
standpoint, which is different than the routine type of 
telework, the day-to-day normal condition telework, but in an 
emergency situation, I think at a minimum, the FEMA direction 
needs to be that is a must component of COOP plans.
    Chairman Tom Davis. OK. OPM and DHS issue guidelines and 
offer assistance in COOP and telework planning, but Federal 
agencies can take it or leave it. And according to GAO surveys, 
they often leave it. Frankly, the progress of Federal agencies 
in adopting COOP plans and implementing telework is not very 
impressive.
    In fact, the White House pandemic implementation plan says 
nothing at all about requiring Federal agencies to develop COOP 
pandemic plans or incorporate telework in those plans. It also 
doesn't require DHS or OPM to review agency plans once they are 
developed.
    So what steps can OPM take to ensure that other Federal 
agencies follow your guidance on COOP planning, especially in 
the face of pandemic? And what additional authority would OPM 
need to assure compliance, and do you think OPM is the right 
agency?
    Ms. Springer. Well, OK. There are several questions you 
asked there. Let me answer those because they're all important.
    At this point, we think roughly half the agencies--or 
actually, this is our most recent telework survey. We're about 
to go out with another one, which I think is pretty timely. But 
about half the reporting agencies had included telework in 
their COOP plans. About another half were working to achieve 
that goal.
    As you noted, we're required under the implementation plan 
from the White House to issue guidance. But to the extent that 
we want to help to ensure that guidance is actually put into 
practice, there are several things we can do. I've already 
arranged to meet with the inspectors general community, the 
PCIE, at their June meeting. And to work with them and 
encourage them, even though we don't have the authority to 
commit them to do this, but to put into place a protocol for 
practicing not just telework, but to make sure that there is a 
practice of those plans at their agencies.
    I've asked our own inspector general at OPM to--at the 
right time to evaluate a test that we will be doing of 
telework. We may take a Saturday or we may take a week day or 
two and actually commit those who are going to telework to 
actually do that. And then we'll have our inspector general--so 
I think inspector general commitment and involvement is going 
to be helpful here.
    I think that we will develop best practices. That will be 
one of the sets of guidance that we put out. Not just here's 
how telework can work, whether you need an agreement, what 
needs to be in writing, that kind of thing. But actually some 
best practices as a result of those tests and what we find at 
OPM.
    So those are the things where I see us actually going a 
little bit beyond the strict task that we've been given under 
the implementation plan. Beyond that, we don't have any 
particular statutory authority. I think that would--that 
implementation role resides at this point more likely with FEMA 
than OPM.
    Chairman Tom Davis. OK. What role will OPM have in this 
June's interagency COOP exercise Forward Challenge? Are there 
plans for an interagency COOP exercise based on a pandemic flu 
scenario? And how essential is it for all the Federal agencies 
to engage in Government-wide exercises for COOP?
    Ms. Springer. Well, the last question is the easiest to 
answer. It's essential for everyone to participate. We will be 
participating in that June exercise. OPM, as I noted in my 
opening statement, has to make sure that OPM is running as 
well. In addition to the Government-wide guidance that we 
provide, we are a guidance agency.
    But our own planning has led to the key essential functions 
that we need to do, and about a third of those are internal 
functions or infrastructure, keeping things running, 
telecommunications, things like that. But then there are others 
that are more externally focused. So we'll be testing those in 
the June exercise.
    Chairman Tom Davis. All right. Ms. Koontz, let me move to 
you. One of the criticisms from GAO was that FEMA didn't 
provide adequate guidance to agencies to prepare for telework 
in the case of emergencies. Now the White House pandemic 
implementation plan directs OPM to issue guidelines for 
agencies on COOP planning criteria for a pandemic and to update 
its telework guidelines. Do you think that is an adequate 
response?
    Ms. Koontz. We're encouraged that there's now a timeframe 
for issuing this kind of guidance. But what I'm not sure about 
at this point is whether the guidance will actually include the 
specifics on what agencies need to do to make sure that they 
are able to use telework effectively when--during an emergency 
situation. And that includes everything from testing to 
communications to technological capacity.
    Chairman Tom Davis. If an agency already regularly uses 
telework, why does it need to test its COOP telework 
capabilities?
    Ms. Koontz. I think as other witnesses have indicated, that 
testing is just critical of every part of continuity planning. 
But under an emergency, particularly a pandemic, you may have a 
lot more people teleworking than normal. And it may be--it's 
probably important to make sure that you actually have the 
technological--you have the communications capacity to do this. 
You have the software licenses that you need to do this.
    Frankly, you don't know what you don't know. And what an 
exercise does is that it shows you those kinds of things, and 
you can feed them back into your continuity planning.
    Chairman Tom Davis. What do you think is the most important 
thing agencies can do to prepare to continue operations during 
a pandemic?
    Ms. Koontz. There are many things, but I'll touch on a few 
from the continuity perspective. And that is, first of all, 
they need to have a robust telework program that includes all 
the necessary preparations.
    And then also I think agencies need to strengthen their 
basic continuity planning, and that includes identifying 
essential functions, identifying the interdependencies, 
identifying what resources you need, and then testing to make 
sure that it all works.
    Chairman Tom Davis. Yes, but for agencies that have already 
begun planning to use telework, what should they do to ensure 
that the capability will be there in emergencies?
    Ms. Koontz. We outline a full list of the practices that we 
think need to be present, but I'll highlight several. One is, 
is that they need to make sure that agency personnel understand 
that they are expected to work during an emergency using 
telework and understand what they're supposed to do in that 
scenario.
    They also need to make sure that we have the technological 
capacity, including telecommunications, and we also need to 
test to make sure that we're able to do that.
    Chairman Tom Davis. OK. Well, we have a vote on the floor. 
Unfortunately, somebody didn't get their amendment made in 
order on the defense authorization bill. So they are getting up 
and moving to adjourn every few minutes.
    I think they think that by doing that, they will get maybe 
their amendment next time. I am not sure if that works that way 
or not. So I think at this point, I am going to let this panel 
go.
    I want to thank you for your testimony. You know, we will 
stay in touch with you on this. It is just very, very 
important. We will take about a 10-minute recess while we go 
vote, and then we will swear in our next panel.
    Thank you all very much.
    [Recess.]
    Chairman Tom Davis. Everybody take their seats. We are 
going to move to our second panel. It is a very distinguished 
panel.
    We have Mr. Scott Kriens, who is the chairman and CEO of 
Juniper Networks. We have Paul Kurtz, the executive director of 
the Cyber Security Industry Alliance, and I think we have 
Alonzo Plough, who will be out in just a minute.
    Let me just say it is our policy that all witnesses be 
sworn before you testify, and he will be here--oh, here he 
comes. Just raise your hand and say ``I do.'' Will you please 
rise and raise your right hands?
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you, and be seated.
    Mr. Kriens, we will start with you.

STATEMENTS OF SCOTT KRIENS, CHAIRMAN AND CEO, JUNIPER NETWORKS; 
  PAUL B. KURTZ, EXECUTIVE DIRECTOR, CYBER SECURITY INDUSTRY 
  ALLIANCE; AND ALONZO PLOUGH, BOARD OF DIRECTORS, TRUST FOR 
                        AMERICA'S HEALTH

                   STATEMENT OF SCOTT KRIENS

    Mr. Kriens. Thank you, Mr. Chairman and members of the 
committee.
    I'd just like to make a couple of comments today in light 
of what we heard earlier. And I will skip over the alarming 
statistics, because I've certainly personally heard plenty of 
those, and get to the question of what can we do here? And how 
can we make this better?
    Because the real risk of the pandemic is not in the 
although tragic consequences of the pandemic itself, the real 
risk of loss is going to be in how well we do or do not handle 
it. And we have a great tool here. The Internet itself was, as 
many of you know--and I know you know, Mr. Chairman--was born 
from research work done by the Government in the 1960's.
    But sometimes what's not known about that is it was 
actually founded on the concern in the cold war days that 
centers of communication and through threats from other enemies 
we would be disrupted as a Nation. And the Internet and the 
structure of its design was meant to recover communications in 
the event that major centers were disrupted and were out of 
service. And here we are, 40 or 45 years later, with an 
opportunity to see that vision help us through other crises.
    And yet, while we can do that, we also have evidence 
presented earlier from Mr. Walker that isn't what is happening. 
While we have 9 of 23 agencies expected to be able to respond 
to telework and to be able to continue operations in the COOP 
planning that's been spoken about, only 1 of those has 
notified, zero have really demonstrated the readiness, and only 
3 of 23 have tested to be prepared for teleworking.
    So while we have plenty of evidence--certainly not only in 
our company at Juniper, but throughout Silicon Valley and in 
other examples across the country and private industry--there 
are literally millions of people capable of teleworking and 
prepared and using technologies to do so, we somehow find 
ourselves mysteriously underprepared to see the same kind of 
continuous operations in command and control exhibited either 
in the face of a pandemic or other concerns. So it isn't what 
is happening, even though it can be.
    And yet, in Afghanistan, Jim Vanderhoff, the CIO of the 
State Department, has deployed telework capabilities for our 
staff, both military and civilian, in Afghanistan, who are 
using telework and remote capabilities to protect themselves 
from the dangers in a country that remote with difficulties of 
that magnitude in order to save life and limb, in order to 
continue operations there.
    So while we see ourselves less prepared than we should be 
in our own country, we also have examples in locations as 
remote as Afghanistan where teleworking and the benefits of it 
and the ability to operate through difficulty continues.
    So in light of that, I'd like to make just a couple of 
recommendations. And in doing so, perhaps we can use the alarm 
of this pandemic to make something good come out of something 
that may be, in fact, very bad. And the first of those 
recommendations is, in fact, to start at the top.
    This is a capability that can be deployed today, and we 
need to set an example. And our first recommendation I would 
make and offer to the committee for consideration is that the 
executives and the leadership in Government are those who 
should adopt teleworking as a primary priority and as an 
example to set for others.
    And that with those proven examples, we have the ability to 
then start a wave of acceptance. Not so much by staff reports 
and by guidance and by hope and prayer, as was said earlier, 
but by actual examples set by senior leadership.
    Using telework today to conduct operations before the 
pandemic and before the crises so that when it does happen, 
it's a capability that is proven and tested and that we're all 
comfortable with. So that would be probably first and primary 
recommendation would be let's start this at the top and let's 
make it work.
    The second is to rely on the proven examples. There is 
proven capability, and my colleague Mr. Kurtz will speak to 
some of this in a moment about the ability of technology to 
authorize, to authenticate, and to demonstrate the legitimacy 
and the safety and security of this use.
    It's protecting our troops in battle. It can certainly 
protect our leaders in Government in our own country as a 
reliable tool. So we should rely on the safety, security, and 
proven capabilities of the technology.
    And finally, to call for open standards in the 
implementation. These are systems which have been proven, which 
must and do interoperate today. And to any extent possible the 
committee can provide that kind of open requirement and 
guidance in the specifics that it drives to us in industry to 
deliver these technologies, it will be enormously valuable.
    As a final thought and perhaps a reference, again, to where 
this capability has been used, one of the primary directives in 
engaging with the enemy is to be able to move, shoot, and 
communicate. And we have a very dangerous enemy facing us in 
this pandemic threat, and we must be able to move. We must be 
able to pick the targets that we are going to attack, and 
primarily to enable that, we must be able to communicate as a 
Nation and for the Government to communicate across its 
leadership in order to make these capabilities a tool and a 
weapon in the battle that we face.
    So, with that, I would like to thank you, Mr. Chairman and 
the committee, for the time to come and speak with you today. 
And certainly I look forward to answering any questions you 
might have.
    [The prepared statement of Mr. Kriens follows:]

    [GRAPHIC] [TIFF OMITTED] T8533.054
    
    [GRAPHIC] [TIFF OMITTED] T8533.055
    
    [GRAPHIC] [TIFF OMITTED] T8533.056
    
    [GRAPHIC] [TIFF OMITTED] T8533.057
    
    [GRAPHIC] [TIFF OMITTED] T8533.058
    
    [GRAPHIC] [TIFF OMITTED] T8533.059
    
    Chairman Tom Davis. Thank you very much.
    Mr. Kurtz.

                   STATEMENT OF PAUL B. KURTZ

    Mr. Kurtz. Mr. Chairman, it's a pleasure to be here today. 
And beginning, I wanted to recall the little quote on the front 
of your report on Katrina, which talked about the five frogs 
sitting on a log. And four of the frogs decided to jump off, 
and how many are left? And the answer was five.
    And I think that's the theme of what I heard earlier today. 
There's a lot of, if you will, people deciding, but not doing. 
A lot of guidance, but no action. And I think the flu pandemic 
planning that we all must go through is an opportunity to 
fundamentally change the way we do business in the Federal 
Government.
    Obviously, my comments will focus on one of the White 
House's key goals of sustaining the infrastructure and 
mitigating the impact of a flu pandemic. I note in 1918, there 
was an ad in a Canadian newspaper, Canadian Bell, which talked 
about only using telephones for emergency use. Obviously, IT 
has a much wider use today. It's integral to our society. So 
it's much more than just emergency use.
    We know from what's happened over the past several years 
that we need to take an all-hazards approach to emergency 
preparedness. We need to have a more resilient society. So with 
that in mind, I want to cover four areas today.
    First, investing in the capability to distribute--to have a 
distributed Federal work force. Second, using the flu pandemic 
to break down Federal barriers. Third, addressing the burden 
that a flu pandemic could have on the overall information 
infrastructure. And fourth, offer a few recommendations.
    The scenarios that play out that we see on various network 
TV shows, I don't think we need to recall necessarily what 
could happen during a flu pandemic. But the reality is that 
today's Federal work force, most of the contingency plans are 
designed for a maximum downtime of 2 or 3 days. And if you 
actually look at the circulars that are put together, they go 
out to, if you will, 30 days.
    Ensuring the continuity of Government operations for an 
extended period is a central responsibility of this 
Government's leadership. Moreover, when you look at the 
continuity plans as they exist today, often they have people 
moving from one facility together to another facility. And as 
we know from the White House plans, that's not going to play 
out right in a flu pandemic.
    The private sector has been pursuing telework for a long 
period of time. In fact, with the events of September 11, a lot 
of the financial industry, if you will, moved their physical 
facilities outside lower Manhattan. Now they're going one step 
further, and they're actually dispersing their personnel, 
enabling them to work from a variety of locations. They call 
this a distributed work force capability.
    AT&T, prior to the merger, of course, had a very aggressive 
telework program where a variety of employees involving 
managers, if you will, essential and nonessential employees 
were able to telework on a frequent basis. The benefits are, if 
you will, well known and widely accepted in the private sector. 
But we have roughly one tenth of the Federal work force that is 
able to telework today, where you have at least 20 percent in 
the private sector.
    When we look at the barriers to a distributed work force, I 
think there are a number of issues that would come to mind. In 
large part, they're systemic. I think it's interesting to note 
there was a lot of conversation earlier today about guidance. 
But just this March, GSA issued guidance which had a few very 
key points in it.
    First, agencies now are able to pay for broadband 
installation and monthly access. Second, they can provide new 
or excess equipment for people to use. Third, they can provide 
help desk support so we can keep on having task forces, if you 
will, that talk about issuing new guidance, or we can actually 
implement the guidance.
    I note that Emergency Preparedness Circular No. 65, which 
was recently redone, also includes a reference to telework. So 
the guidance exists today for Federal agencies to do more in 
telework.
    I do want to note, before I move on to my recommendations, 
that we do need to think about the burden on the overall 
information infrastructure during a crisis. We saw this after 
September 11th. We saw it in Katrina. I know your committee has 
looked at this. But we need to think more widely about what 
would happen. We need to get the appropriate private sector 
folks involved from whether it's the NSTAC or NIAC, which are 
both Presidential advisory committee.
    If I can look at recommendations, I would say, first of 
all, we need a top-down approach from the White House involving 
the Office of Management and Budget and the Homeland Security 
to push down into Federal agencies the need to telework and to 
set strict metrics.
    Second, as I mentioned, I think NSTAC and NIAC, these 
Presidential advisory committees need to look closely at the 
issue of the burden on the information infrastructure.
    And third, I would encourage Congress to pursue a three-
pronged strategy. A, look at what statutory barriers there 
might be to the expansion of telework. For example, I 
understand from my conversations that agencies, if you will, 
don't have the incentive to pursue telework because any gains 
they may make or--excuse me, savings they may make have to be 
returned to the Treasury.
    Also there was a recent study that was done that talked 
about FISMA being perceived as a potential barrier to telework. 
I think it's worthwhile exploring that issue as well.
    And then, finally, I think we ought to think about, if you 
will, a carrot and stick approach. Incentivize agencies so they 
can win at telework.
    Finally, to close, Mr. Chairman, I know last year at this 
time, you talked about the need to decentralize Federal 
agency--Federal agency operations. And I really don't think, 
you know, since last year, even since September 11th, we've 
really had that change in mindset, to change from brick and 
mortar mentality to a decentralized Federal Government 
operation.
    Thank you.
    [The prepared statement of Mr. Kurtz follows:]

    [GRAPHIC] [TIFF OMITTED] T8533.060
    
    [GRAPHIC] [TIFF OMITTED] T8533.061
    
    [GRAPHIC] [TIFF OMITTED] T8533.062
    
    [GRAPHIC] [TIFF OMITTED] T8533.063
    
    [GRAPHIC] [TIFF OMITTED] T8533.064
    
    [GRAPHIC] [TIFF OMITTED] T8533.065
    
    [GRAPHIC] [TIFF OMITTED] T8533.066
    
    [GRAPHIC] [TIFF OMITTED] T8533.067
    
    Chairman Tom Davis. Thank you very much.
    Dr. Plough.

                   STATEMENT OF ALONZO PLOUGH

    Mr. Plough. Thank you, Mr. Chairman and members of the 
committee.
    On behalf of Trust for America's Health, I really 
appreciate this opportunity to testify on this critically 
important issue of pandemic influenza preparedness.
    I am here representing Trust for America's Health, where I 
serve on the board of directors. I'm currently vice president 
for the California Endowment, a private philanthropy in the 
State of California also focused on these issues. But my 
comments are really with my hat on as a board member.
    My comments are really gleaned from my 20 years of 
experience, though, as a local public health official--the last 
10, as of last July, as director of the Seattle and King County 
Department of Public Health. And that on-the-ground perspective 
of what it means to be an effective responder in communities in 
disasters are the contexts that I'm drawing on today.
    Recently, the public is catching up with the concern we 
have had in the public health community around pandemic 
influenza. It's something that we have warned about for years, 
but I think recent events and certainly the visibility of these 
hearings and the visibility of the recently released report, 
not to mention heightened media coverage and made-for-TV 
movies, has raised these concerns to new levels.
    The question is, how do we make sure that we have 
operationalized these responses on the ground that can serve 
the public well in the event of a pandemic?
    Trust for America's Health and other health organizations 
actually hear, and I heard a lot when I was a local health 
official, of frustration from individuals and businesses that 
actually believe that little or nothing can be done. And 
certainly a sense of fatalism does not lead to the kind of 
collaboration needed to develop a good response to pandemic 
influenza.
    We have gone over in the previous panel the frightening 
data on the infection rates and the absenteeism of 40 percent. 
When I was a public health official, I was always asked, ``What 
keeps you up at night?'' Pandemic influenza planning was the 
single factor that kept me up at night in the complexity of 
what I looked at in public health, mainly because a true 
response is a collaboration between Government at all levels, 
business, schools, faith-based organization, the medical 
community. We're behind the curve. We need to prepare now.
    I'm very, very proud that Seattle and King County are 
recognized as among the most prepared communities in America 
for pandemic influenza, and I think it serves as an example of 
how a community can prepare, how the Federal Government can 
best encourage what local preparedness looks like. And I'm 
going to tell you briefly some of the things we did over those 
last 10 years to get to that position.
    We started by defining clear lines of authority and 
accountability during health emergencies. The public health 
department is in charge in that jurisdiction, maintaining 
central coordinating role, incident command role around all 
other governmental structures. This operational clarity is one 
of the--or lack of operational clarity is one of the weakest 
points of many other local plans, as well as the Federal plan.
    Seattle and King County also benefit from having a unified 
public health department that includes emergency medical 
services. It serves both all the 40 cities in the county as 
well as the county as a whole. It means that public health, 
health care providers, first responders, trauma units, and 
hospitals are all connected on the ground in a way that is not 
common practice in most cities and counties across the country.
    Additionally, Seattle and King County have an all-hazards 
approach to Federal preparedness. Despite of how the targeting 
of the funds might go, this health department thinks about what 
do we have to do to be ready for all kinds of threats? So clear 
authority, collaboration throughout the community, judicious 
use of Federal funds are the ingredients that led to our 
success and could be modeled across the Nation.
    On May 3rd, the White House unveiled the detailed 
implementation plan for pandemic influenza. Three hundred 
activities already cited today--tied to specific 
accountability, measured in timelines--are part of that plan. 
And while we commend that plan in many ways, the real measure 
of effectiveness of a plan is its implementation and how it 
works on the ground.
    And Trust for America's Health plans to actively monitor 
the progress of how this plan is actually carried out with the 
nuances of community responsibility, and through that lens, 
we've identified a few specific concerns.
    Well, first, it's unclear what individual and which agency 
will lead the Federal response during a pandemic. The plan 
currently gives responsibilities to both the Department of 
Health and Human Services and the Department of Homeland 
Security without making clear which of these departments is 
ultimately accountable. We know that at a local level, you do 
need single accountability.
    And Trust for America's Health strongly believes that HHS 
should be designated as the lead agency, with the Secretary 
charged with coordinating other Federal efforts. This is a 
health crisis, and health expertise should guide all of the 
decisions. It would mirror the structure that's worked so well 
in Seattle and King County.
    Second, the plan does not adequately address the financial 
blow that the country would take during a pandemic outbreak. 
For example, once an effective vaccine is available, there are 
no measures in place to figure out how much it will cost, who 
will purchase the 600 million doses. We really cannot leave 
such important implementation decisions to the middle of a 
national crisis.
    Beyond improving the plan, there are other steps that must 
be taken to ensure the Nation is prepared. Trust for America's 
Health has identified some specific recommendations that are 
detailed in my written testimony. Let me just highlight a 
couple of those.
    Where you live in this country, shouldn't--rural, urban--
where in the country shouldn't determine what your level of 
preparedness is. We need to be much more even on that. Right 
now, planning largely rests on State and local shoulders. It's 
unacceptable to leave communities virtually on their own with 
respect to preparing for pandemic flu, particularly leaving 
communities with large non-English speaking populations, like 
in California, with fewer resources at higher risk.
    Health and Human Service, in consultation with public 
health and medical professionals, should develop much more 
detailed guidance for State and local officials so this on-the-
ground response matches the diversity of what preparedness 
means across our country. There should be priorities for--clear 
prioritization for the populations that are going to get 
limited vaccines, incentivizing mechanisms for health care 
workers, and equitable distribution of federally held 
stockpile.
    Second point is that there will be ongoing life and 
activity after a pandemic, and we really need to ensure that 
the consequence management system is sound. The Government 
needs to take steps right now to ensure sustainability of the 
health industry.
    This kind of response that hospitals and health providers 
will have to a pandemic could shut down our emergency care 
facilities just at the point when we need them most. People 
could not seek diagnostic care because they don't--can't pay 
for this. This is not a time to have individuals, because they 
are uninsured, also become high probability carriers of a flu 
in a flu outbreak.
    So it's very important that we not let affordability of the 
health care be a barrier to people seeking treatment and not 
spreading this influenza. So Trust has proposed the creation of 
a standby Medicaid authority that would grant emergency 
temporary Medicaid eligibility to individuals who are 
uninsured. This really helps to preserve our hospital 
infrastructure and make sure that individuals get treated and 
don't spread the disease.
    In conclusion, considerable progress has been made, really 
even since the 10 months that I have not been a health officer. 
Given where we were a year ago, I'm actually really shocked 
where we are today. This plan is a great improvement over the 
past, and a lot of progress has been made.
    Lots of flaws to fix. A lot of specificity is needed. And 
Congress needs to really act now.
    Thank you for letting me talk to you.
    [The prepared statement of Mr. Plough follows:]

    [GRAPHIC] [TIFF OMITTED] T8533.069
    
    [GRAPHIC] [TIFF OMITTED] T8533.070
    
    [GRAPHIC] [TIFF OMITTED] T8533.071
    
    [GRAPHIC] [TIFF OMITTED] T8533.072
    
    [GRAPHIC] [TIFF OMITTED] T8533.073
    
    [GRAPHIC] [TIFF OMITTED] T8533.074
    
    [GRAPHIC] [TIFF OMITTED] T8533.075
    
    [GRAPHIC] [TIFF OMITTED] T8533.076
    
    Chairman Tom Davis. Thank you.
    Mr. Kriens, you have to leave in a couple of minutes is my 
understanding. Is that----
    Mr. Kriens. We've extended a bit of time. So please.
    Chairman Tom Davis. All right. Thank you.
    Well, let me start. Why do you think that Federal employees 
have been slow to roll out or the Federal Government has been 
slow to roll out teleworking employees? Now that you are 
sitting there, both to ask you and Mr. Kurtz. And how can we 
get buy-in from senior management? How do you do it in the 
private sector?
    I will start with you, Mr. Kriens.
    Mr. Kriens. It's, as you know, multi-faceted, Mr. Chairman. 
But if I were to put it in a commonly used phrase, I think 
we're trying to boil the ocean. And what we really need to do 
is to have use of teleworking spread in the same way the 
Internet itself developed, which was to sprout up in pockets 
and then have those pockets communicate with one another.
    Ironically, as we sit here talking about pandemics, it's 
something we call ``viral progress'' in the deployment of 
communications and new technology. Because as people see the 
benefit of it through use by others and talk amongst 
themselves, it makes more progress in deploying these 
technologies than anything we can legislate or that we can 
dictate or that we can plan a report on.
    So it's one of the reasons for our recommendation that, 
really, if this starts with the leadership, such as yourselves 
and others who are familiar with this and do use it, taking it 
to heart and spreading it from the top down, that will do more 
to motivate progress and acceleration than anything that we can 
do from the bottom up.
    Chairman Tom Davis. We try here at the legislative branch. 
But ultimately, this is an executive branch function. We have 
continued--Mr. Davis has legislation moving, trying to get the 
Government to move on it. And it has just been very, very slow.
    Mr. Kurtz, any comment on that?
    Mr. Kurtz. Yes, I would--there are three factors that I 
intend to contribute. I think one is Cabinet-level agencies 
don't necessarily have the incentive to aggressively pursue 
telework. I know that in the GSA survey that was released last 
year, it talks about, you know, who has more telework versus 
less.
    And it's very interesting to look at several of the senior 
agencies, including Labor, Treasury, and HUD. The actual number 
of people who are eligible for telework has gone down. So I 
think, you know, there is a budgetary issue that needs to be 
addressed.
    Second, I think there is a perception among IT managers 
that perhaps FISMA is a barrier. I think that's probably 
misplaced. But FISMA could be used as, if you will, a reason as 
to why one cannot pursue telework.
    I understand at DHS, at least, that they don't allow the 
use of wireless. Well, it's kind of hard to telework if you 
don't have any sort of wireless technology capabilities. There 
are technologies today to handle all of the security, the 
authentication issues associated with telework.
    The third issue I think is basically managers wanting to 
have eyes on their employees. And once again, we have 
technology that is available today that helps managers 
understand what their employees may be doing from afar. In 
other words, when I might come onto the computer, what 
applications I may access. Those type--you know, how long I'm 
on the system.
    Those kind of issues, I think, combined, those three, 
create an environment where senior-level managers and agencies 
are not pursuing telework. You'll note that I have not said 
security is an issue. The technologies are out there today in 
order to have secure, reliable telework, and the private sector 
is case in point.
    One final point that I think is fascinating, and you look 
at AT&T, the old AT&T, if you will, before the merger. Forty 
percent of their management was able to telework. When you ask 
that question of Federal executive managers, 30 percent are not 
allowed. That was the response, 30 percent are not allowed to 
telework.
    And so, you know, set the standard at the top. Have 
managers themselves begun to telework. The guidance is in 
place. We don't need more guidance. It's just starting to do 
it.
    Chairman Tom Davis. In fact, until I think a couple of 
years ago, when we passed legislation out of this committee, 
Federal contractors weren't allowed to charge telework back to 
the Government. And sometimes that is the most productive work.
    Mr. Kriens, let me ask you the last-mile solution, such as 
residential broadband, will be relied on if the Federal 
civilian employees are to telework. How are these networks 
designed to ensure resilience?
    Mr. Kriens. The primary source of the resilience is 
actually in the dispersity and the breadth of the physical 
infrastructure itself. By the time one gets to the last mile, 
whether that's a copper wire or a coaxial cable or, in some 
cases, as Paul mentioned, a wireless access, the pure 
dispersion of that is the very diversity that we need.
    Any one of those points or perhaps even a neighborhood can 
be affected, but the protection is in the dispersion of the 
work force across many tens or hundreds of square miles. And 
there are also for key executives or for key needs an ability 
to, by the very nature of the competing entities here as 
service providers, the cable operator and the wireless operator 
and the traditional wire line telephone company have built 
three separate infrastructures.
    So in the case of critical executives, it's quite possible 
for literally $50 a month to duplicate redundant capabilities 
and facilities all the way into the offices in the home of 
critical executives. So it's a cost issue, but it's a very 
modest one in the case of protecting senior leadership from any 
physical diversity requirement----
    Chairman Tom Davis. It has to be done now. I mean, you 
don't want to sit and wait until this thing is on top of us.
    Mr. Kriens. We cannot wait to put this in place when the 
work force has been immobilized. Not just the work force that 
we speak of, but those who must enable and go out and deploy 
and make those connections.
    We have the ability to do that now. I think it's clearly 
within reach and within technical means without question. And 
so, now is certainly the time, and it's easily doable.
    Chairman Tom Davis. And you don't feel that basically from 
that, that our agency employees that deal with sensitive and 
classified information, those are very resolvable if we stay 
ahead of the game?
    Mr. Kriens. Again, the best example of that is we're using 
the very same technology to protect our troops in battle with 
the ultimate reliability requirement. They are relying today in 
work we do with the defense agency, you know, we are relying on 
battlefield information as an alternative to deploying 
contingent troops and materiel in battle because we need that 
information to know the specificity and location and magnitude 
of enemy force.
    And we are relying on it to that degree that we are keeping 
our men and women out of harm's way as a result of the use of 
this technology every day in conditions much more demanding 
than those that would be required to reach a given neighborhood 
in this country.
    Chairman Tom Davis. Thank you.
    Mr. Issa.
    Mr. Issa [presiding]. Thank you, Mr. Chairman.
    I will be fairly brief. I realize that you are, even with 
an extension, on a short leash time wise. And Mr.--I 
apologize--Klines?
    Mr. Kriens. Kriens.
    Mr. Issa. Kriens. I apologize. I am a little concerned, 
though, about the statement you made on $50 a month. I 
telecommute relatively effectively, but--and by necessity. But 
you can't do it for $50 a month.
    Are you saying that you think that the average Federal 
employee or health care provider, first responder will provide 
all of the software and hardware, and all we have to do is pay 
for the connection? Where do you get the $50 figure?
    Mr. Kriens. And let me clarify, Congressman Issa, the--I 
was really specifically answering the question of redundancy. 
So there is an initial cost, as you accurately described, for 
setting up the computing capability, the software and security. 
And that will vary depending on the amount of performance and 
processing power.
    The $50 a month is actually probably more than it would 
cost to deliver the physical redundancy. So that if there were 
a capability via your traditional telephone supplier on a DSL 
line over copper and one were to seek a cable line for backup 
or wireless access for backup, the incremental cost of that 
access in various counties and States around this country is in 
the sometimes $29 to $30 a month range.
    But I was really referring purely to the cost of the 
chairman's question on providing physical diversity. There's a 
cost, it would probably be more in the $100 range, which would 
be the establishment of the capability, maybe $150 if you 
wanted to amortize the equipment as well, in setting up the 
telecommuting/telework capability.
    And then the additional moneys would be for providing the 
physical redundancy for critical need.
    Mr. Issa. And how many health care professionals do you 
think would be required? In other words, give me the gross 
number of people so we can do the multiple.
    Mr. Kriens. The gross number of people that would need to 
telework in an emergency?
    Mr. Issa. Yes.
    Mr. Kriens. I'm not sure one would be capable or I'm not 
capable certainly of predicting that here without having a 
guess as to the magnitude----
    Mr. Issa. More than 100,000?
    Mr. Kriens. More than 100,000 people?
    Mr. Issa. Well, if we look at every location in the 
Nation----
    Mr. Kriens. Uh-huh.
    Mr. Issa. And we look at every person that you would like 
to have this redundancy capability--and I am not trying to be 
unfair to your proposal. I actually want to embrace it. I am 
looking at when we try to turn, you know, it is like, you know, 
Dr. Plough?
    Mr. Plough. Plough.
    Mr. Issa. Plough. Thank you. Had--I am not doing good on 
names today.
    Mr. Plough. That's OK.
    Mr. Issa. But, you know, I appreciate that we need 600 
million doses of X worldwide. But then there is X, Y, Z, A, B, 
C. In a recent trip to Geneva, one of the questions, you know, 
that you have to ask is, do we invest in the ability to quickly 
find or quickly refine and distribute in the future Z when it 
comes along, or do we stockpile A, B, C, D, E, F, G of various 
known? And what are the cost tradeoffs?
    So I really believe, and you have Virginia's former 
secretary of technology right behind you. So he will smile when 
I say this. I really believe America needs to be connected from 
a redundancy standpoint in every home and that this has to be a 
basic capability.
    Then the question is whether you are a health care 
professional, an AT&T executive, or a Congressman, or a school 
teacher, how do we analyze how much is going to be borne by our 
middle class citizens, and how much is going to be borne by 
potentially Government agencies?
    Mr. Kriens. It's an excellent point, and I have an affinity 
for practicality. So let me respond in kind. The actual 
physical redundancy requirement, I would believe, is actually 
quite limited because it's only the senior executive and senior 
leadership for whom that degree of accessibility on an 
uninterrupted basis would be required.
    As the reports and various study of this has delineated, 
there are executive leadership, there is essential and 
potentially nonessential, or I would prefer to think of them as 
perhaps less essential, for whom the redundancy is not a 
requirement because there are others who could substitute. And 
the real availability, which is a different term, is borne by 
the fact that the dispersed work force is scattered over 
hundreds or, in the case of the country, millions of square 
miles.
    So there is no effect that would likely take out more than 
a pocket of them, and there are others who could substitute and 
fill in and come from other areas. And as a result, there isn't 
a need for this kind of redundancy or additional expense other 
than for the senior.
    And I would just start at the ultimate irreplaceable 
leadership. The President of the United States literally has a 
mobile cell that follows him across his ranch in Crawford, TX, 
and goes down into the gullies when he decides to go chop wood 
so that he is accessible, obviously, on a moment's notice.
    From there, one could step down----
    Mr. Issa. And his is fully secure at the highest possible 
security level, too?
    Mr. Kriens. We spend a lot of time at Juniper making sure 
of that, as a matter of fact. But we can quickly move to a case 
where much of the leadership really can be substituted for or 
for which contingency planning could avoid the hard cost, and 
it certainly would echo your point that we have to be practical 
about this and reserve those kinds of duplicate costs for only 
the premium and really irreplaceable leadership requirements.
    Mr. Issa. And would that number be relatively similar if, 
instead of talking about a pandemic, we were looking at the 
next Hurricane Katrina?
    Mr. Kriens. It's an interesting thing. Yesterday, I'm in 
town also as a member of the National Security 
Telecommunications Advisory Committee that reports to the 
President, and we had our meeting yesterday. And one of the 
comments that was made was that Katrina itself actually 
replicates in many cases a nuclear threat example and certainly 
a pandemic example because the water didn't come in and go out.
    Most hurricanes and floods and tornadoes and other events 
happen over the course of 24 or 48 hours, and then we are able 
to rebuild the infrastructure and recover. And Katrina is 
actually a fantastically frightening example of what can happen 
if the threat is sustained and carries over weeks and months. 
And there's an inability to reach infrastructure, to 
reestablish power, to reestablish communications, command, and 
control.
    So it's quite an opportunity for us to learn about how we 
would conduct continuous operations, and the pandemic is going 
to be another example of that, if and when and to what 
magnitude it hits. Because we will have extended loss of access 
to facilities and resources, and we have the wherewithal to 
continue operations during that extended and very difficult 
condition.
    Mr. Issa. OK. I am going to not belabor this point, but is 
one that I am sure this committee was going to deal with in the 
future.
    One last sort of the exit question that often we ask. When 
looking at the President's recent proposals, 300 and some 
items, if you were to break them down, how many of them are 
dual or multi-use and have relatively small cost other than 
the, if you will, the preparation, the thinking, the one-time 
cost of preparing versus what are the major, when you get to 
the other extreme, what are the major items that we have to 
look at--not in this committee, but in the Committee on 
Appropriations--that are significant, very significant dollars 
and not one time? If you would just touch on the key ones.
    Mr. Kurtz. Maybe I'll try to come to your--let me try to 
come to your question a different way. I'm not going to 
position myself as being able to analyze the full plan that the 
President has put together. But in your previous question----
    Mr. Issa. Pick five or six. That would probably do it.
    Mr. Kurtz. We're talking about cost.
    Mr. Issa. Yes.
    Mr. Kurtz. And I think there are a couple of things that 
strike me when we talk about the area that I know best, and 
that is on a communications side. And first of all, just 2 or 3 
years ago, we couldn't talk about having, if you will, Web-
based applications. They're far more prevalent than there are 
today.
    You made a statement that, you know, who's going to buy all 
the software? Well, the fact is, I can be at home now, and I 
can tap in through technologies that are available today that 
don't require me to have software on my computer. I can use a 
Web-based application to go in, to tap into the home bank or 
the enterprise, and see what I need to do and do my business.
    The other thing--the other issue I'd highlight with regard 
to cost. A lot of the cost associated with the pandemic or 
planning a pandemic, if you will, may be one-time cost or a sum 
cost. That's not the case when you think about telework.
    Telework helps us with routine activity every day, everyday 
business activity in the Federal Government. It also helps us 
with all hazards. It's not just a one-time sum cost to help us 
with a pandemic. It helps us with a hurricane. It helps us with 
a terrorist attack. It helps us with a blizzard. And so, if we 
can change our mindset to think more broadly about this, then I 
think it would be helpful.
    And the final comment, if I can, is to think about scope. 
There's a lot of conversation about only essential employees. I 
disagree. I think we ought to dig deeper into the agency and 
think more broadly about who is included and just as a--as an 
estimate, you know, the top third or so of the agency.
    So that when we look at contingency plans as the guidance 
that the Federal Government has today, it's 72 hours or so that 
you can exist on essential employees. Then you're dispersing to 
a location for like 30 days. It's only the top employees.
    Well, when you look at the plan that the White House has 
put together, we're well beyond 30 days. So the essential 
employees are not--not--going to be able to keep the operation 
going for an extended period of time. So we have to dig down 
more deeply into agencies as we think about the flu pandemic.
    Mr. Plough. If I could just respond from the public health 
side?
    Mr. Issa. Yes, please.
    Mr. Plough. The President's plan builds multi-use capacity 
that is applicable to many kinds of infectious diseases, 
earthquake, floods, because it heightens the connectivity of 
first responders with community in a way that, if funded 
appropriately, is sustainable and builds a missing piece of our 
protective structure for public health.
    So those--there are sustainable and multi-use components of 
this. Pandemic is one of the worst cases. If you are properly 
prepared for pandemic influenza, you are prepared for SARS, you 
are prepared for West Nile, you are prepared for an earthquake. 
You are prepared for a variety of public health disasters.
    Mr. Issa. Excellent. Well, I don't have any other 
questions.
    The record will remain open for 5 legislative days for any 
additional questions from people that are not able to be at the 
dais and so you may revise and extend as your rather cogent 
capabilities allow you to think of things.
    In addition, I would like to thank you very much for the 
generosity of your time, being here today, and the 
thoroughness, including the fact that no one is rubber-stamping 
somebody else and that we do have a very active debate because 
of this hearing between what happens on day 1 and what happens 
after day 30.
    And with that, we stand adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Dan Burton and Hon. 
Darrell E. Issa follow:]

[GRAPHIC] [TIFF OMITTED] T8533.077

[GRAPHIC] [TIFF OMITTED] T8533.078

[GRAPHIC] [TIFF OMITTED] T8533.079

                                 <all>

</pre></body></html>
